WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1177

National Medical Imaging, LLC, et al. U.S Bank, N.A., et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO lam filing this waiver on behalf of all respondents.

© __Lonly represent some respondents. | am filing this waiver on behalf of the following respondent(s):

Ashland Funding, LLC

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

simu: ~hwnrg Ml Lehi

Date: 3/1/2021

(Type or print) Name Edward M. Koch

© wr. O Ms. O Mrs. O Miss
Firm White and Williams LLP
Address 1650 Market St., Fl. 18
City & State Philadelphia, PA Zip 19103
Phone 215-864-6319 Email koche@whiteandwilliams.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Erwin Chemerinsky
University of California, Berkeley School of Law

ce echemerinsky@law.berkeley.edu
